Department of Homeland Security
   Ofﬁce of Inspector General


  Release of the U.S. Immigration and Customs 

  Enforcement's Worksite Enforcement Strategy 





OIG-10-22                            December 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                              December 3, 2009


MEMORANDUM FOR:               John T. Morton
                              Assistant Secretary
                              U.S. Immigration and Customs Enforcement


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                      Letter Report: Release of the U.S. Immigration and
                              Customs Enforcement’s Worksite Enforcement Strategy
                              OIG-10-22

At the request of U.S. Representative Harold (Hal) Rogers, Ranking Member of the
Subcommittee on Homeland Security, Committee on Appropriations, we initiated a
review into the potential unauthorized release of the U.S. Immigration and Customs
Enforcement’s (ICE) Worksite Enforcement Strategy guidelines.

We reviewed the events surrounding the release of the Worksite Enforcement Strategy
guidelines to the New York Times. The April 30, 2009, article described very specific
aspects of the strategy, which created confusion as to whether “law enforcement
sensitive” information was released to the public. Later that day, the copy of the strategy
provided to Congress was marked as law enforcement sensitive. We determined the
release had deviated from previously established Department of Homeland Security
(DHS) and ICE practices; however, no law enforcement sensitive information was
released. This event appears to be isolated, and not a systemic issue within DHS or ICE.

We are making two recommendations to clarify the sensitivity designation of the
Worksite Enforcement Strategy, and to enhance the ICE’s designation removal processes.

Should you have any questions, please call me, or your staff may contact
Carlton I. Mann, Assistant Inspector General for Inspections, at (202) 254-4100.
Background
At the request of U.S. Representative Hal Rogers, Ranking Member of the Subcommittee
on Homeland Security, Committee on Appropriations, we reviewed the release of the
U.S. Immigration and Customs Enforcement’s (ICE) Worksite Enforcement Strategy
guidelines. The request was in response to an April 30, 2009, article in the New York
Times that described very specific aspects of the strategy. The public release occurred
before the strategy was distributed within ICE or to Congress. However, the copy of the
strategy guidelines provided to Congress later that day was marked as law enforcement
sensitive (LES) information.1 Because the copy of the strategy sent to Congress was
designated LES even though the strategy had been released to the media without such
designation, confusion was created as to whether LES information was released to the
public. Our objectives were to (1) determine the process to disseminate the Worksite
Enforcement Strategy guidelines, and (2) assess the events related to the potential
unauthorized release of LES information, including ICE’s actions in addressing and
handling the incident.

ICE protects the security of the United States through its enforcement of customs and
immigration laws and has developed a comprehensive worksite enforcement strategy that
promotes national security, protects critical infrastructure and ensures fair labor
standards. The worksite enforcement strategy encompasses activities intended to
mitigate the risk of terrorist attacks posed by unauthorized workers employed in secure
areas of our Nation’s critical infrastructure. Further, ICE’s worksite enforcement reduces
the demand of illegal employment and protects employment opportunities for a lawful
workforce by investigating employers involved in criminal activity or the exploitation of
workers.

In January 2009, the Secretary of the Department of Homeland Security (DHS) issued a
series of action directives to assess departmental effectiveness and improve current
programs and operations. One of the action directives, dated January 30, 2009, included
a number of emphasis areas related to immigration, border security, employment
verification, and enforcement. On February 25, 2009, shortly after the directives were
released, the Secretary testified before the U.S. House of Representative’s Committee on
Homeland Security that the day before ICE conducted a worksite enforcement action
without her knowledge. This worksite enforcement action involved the arrest of 28
illegal immigrant workers at the Yamato Engine Specialists facility in Bellingham,
Washington. The Secretary further testified that she requested that ICE provide answers
to questions she asked about the predicate for this enforcement action. Following the
Secretary’s testimony and issuance of action directives, the department was to focus on
setting mission priorities, including immigration enforcement, as well as ensuring that


1
 The term For Official Use Only is used by the Department of Homeland Security to denote sensitive but
unclassified information that is not regulated by statute or regulation. ICE further delineates within the For
Official Use Only designation a law enforcement–related category known as LES.

    Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                                      1
worksite enforcement actions focused appropriately on employers. Those events served
as a catalyst for developing ICE’s new enforcement strategy.

Results of Review

Efforts to Develop the Worksite Enforcement Strategy

In March 2009, the department instructed ICE to create a strategy that emphasized its
renewed focus on worksite enforcement, targeting employers for criminal prosecution.
This strategy was to serve as general guidance for ICE agents and direct investigative
efforts toward those employers who knowingly engaged in employing illegal workers.
Further, the strategy would clarify that ICE is to use all available civil and administrative
tools, including fines and debarment, to penalize and deter the employment of illegal
workers.

As instructed, ICE’s Office of Investigations, with the assistance of ICE’s Office of the
Assistant Secretary, collaborated to develop the strategy. By late March 2009, ICE
forwarded its initial draft to DHS. During the initial development stages, ICE designated
the draft Worksite Enforcement Strategy guidelines as LES, and the draft copy reportedly
retained this designation until days before its release.

Within DHS, personnel from the Offices of the Secretary, General Counsel, and Policy
worked to finalize the strategy’s content and direction. Although DHS maintained
ultimate responsibility for the strategy, DHS provided ICE’s Office of Investigations and
Office of the Assistant Secretary some opportunities for comments. However, we were
told that several DHS officials limited ICE’s involvement toward the end of drafting in an
attempt to reduce the potential risk of the strategy becoming public prior to its official
release. As the department was finalizing the strategy, DHS and ICE officials made
general statements highlighting the forthcoming strategy and the department’s renewed
efforts to focus on worksite enforcement operations. However, none of these statements
committed to providing the strategy prior to its official release.

Release of the Strategy and Removal of the Law Enforcement Sensitive Information
Designation Caused Confusion

As part of the release, DHS officials intended to unveil the department’s Worksite
Enforcement Strategy guidelines in a manner to generate positive public relations for
worksite enforcement and highlight DHS’ refocus on worksite enforcement priorities.
DHS officials determined that the best vehicle for the release was to conduct an exclusive
news interview with the New York Times. DHS intended for the news article release to
coincide with ICE’s internal release and its congressional notifications.

ICE and DHS officials we interviewed provided conflicting statements about the
strategy’s sensitivity designation and removal. Although ICE had previously designated
the strategy as LES, some officials reported those involved with the development of the

   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              2
strategy reached a consensus that the document was not LES. However, DHS policy
states that information designated as “For Official Use Only” retains its designation until
the original designator, or a management official who has program management
responsibility over the designator or the information, determines otherwise. Officials
involved in the creation of the strategy could not verify when or why the LES designation
was removed from the document. Although it is unclear who removed the LES
designation during drafting, the final strategy signed on the evening of April 29, 2009,
did not contain an LES designation.

After the final strategy was signed on April 29, 2009, DHS proceeded with its
notification process to the news media, ICE employees, and Congress. On
April 29, 2009, the department’s Office of Legislative Affairs verbally notified
congressional staff and those committees with an interest in worksite enforcement
activities of the program’s new strategy. Although congressional staff requested a copy
of the strategy during those verbal notifications, a senior management official directed
the Office of Legislative Affairs not to grant these requests to avert the potential risk of
the document’s early release.

On April 30, 2009, at 8:01 a.m., ICE’s Office of Investigations transmitted the strategy,
without an LES designation, to its field offices. Subsequent to that transmission, ICE’s
Office of Investigations conducted a teleconference with the Special-Agents-In-Charge to
announce and discuss the new strategy. As planned, the news article also appeared in the
New York Times, which included a statement that the newspaper received a copy of the
new strategy. Although DHS officials held several discussions with the New York Times’
reporter prior to the release, neither DHS nor ICE officials were certain whether the
actual strategy document or just press highlights were provided to the reporter.

On April 30, 2009, after its release, DHS asked ICE whether the entire strategy document
could be released to Congress. Although not required, ICE employees routinely seek
counsel from ICE’s Office of the Principal Legal Advisor before releasing information to
entities outside of ICE. Therefore, ICE officials immediately forwarded the strategy to
its Office of the Principal Legal Advisor for an LES review determination to ensure the
protection and safeguarding of sensitive information. It is unclear why the document
required an LES review at this point, when it had already been released to the media
without the LES designation.

To provide Congress with a timely response, and under some pressure by DHS, ICE
officials did not wait for the Office of the Principal Legal Advisor’s review and instead
marked the strategy as LES with an abundance of caution, without any additional
language to indicate that the LES designation was provisional. As a result, the strategy
copy forwarded to Congress on April 30, 2009, was marked “Law Enforcement Sensitive
– Unauthorized Disclosure Prohibited.” Because the copy of the strategy sent to
Congress was designated LES even though the strategy had been released to the media
without such designation, confusion was created as to whether LES information was
released to the public. However, later that afternoon, ICE’s Office of Principal Legal

   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              3
Advisor responded that the strategy was releasable because it did not describe with
specificity the tools or methodologies employed by ICE in conducting worksite
enforcement activities. Even so, during our fieldwork, neither ICE nor DHS officials had
removed the LES designation or reissued the strategy without any designation markings.

Designation Removal Authorities and Determinations Need Further Enhancement

Given DHS’ authority over components and its involvement in policy creation, such as
the Worksite Enforcement Strategy, the department could clarify sensitive but
unclassified designation removal authorities and processes, as well as release procedures.
The use of subject matter experts and component program officials to conduct sensitivity
reviews prior to official internal, congressional, or media releases would enhance
coordination and communication efforts between DHS and its components, as well as
avoid potential future disclosures that are perceived to be unauthorized.

Although the need for better internal coordination and communication within the
department led to confusion over the Worksite Enforcement Strategy’s release and
sensitivity designation, this event appears to be isolated and is not a systemic issue within
DHS or ICE. Nevertheless, ICE should take additional steps to enhance its safeguarding
of law enforcement sensitive information to avoid potential future disclosures. We urge
ICE to incorporate additional measures into policies related to its safeguarding of law
enforcement sensitive information to clarify ultimate designation removal authorities, as
well as procedures and processes for designation removal determinations, including
superseding designation determinations.

Recommendations

We recommend that the Assistant Secretary of U.S. Immigration and Customs Enforcement,
in coordination with the Under Secretary for Management:

       Recommendation #1: Revise policies related to the safeguarding of ICE’s law
       enforcement sensitive information to clarify designation removal authorities, as well
       as procedures and processes for designation removal determinations, including
       superseding designation determinations.

We recommend that the Assistant Secretary of U.S. Immigration and Customs
Enforcement:

       Recommendation #2: Obtain a final sensitivity review of the Worksite
       Enforcement Strategy and, if appropriate, reissue the strategy without the 'For
       Official Use Only, Law Enforcement Sensitive' designation.




   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              4
Management Comments and OIG Analysis
We received written comments to our report from ICE. A summary of ICE’s written
response to the report’s recommendations and our analysis of the response follows each
recommendation. A copy of ICE’s response, in its entirety, is included as Appendix B.

ICE Response: ICE concurred with Recommendation 1.

OIG Analysis: We consider Recommendation 1 resolved and open. This
recommendation will remain open pending our receipt of ICE’s revised law enforcement
sensitive information policy that clarifies designation removal authorities, as well as
procedures and processes for designation removal determinations, including superseding
designation determinations.

ICE Response: ICE concurred with Recommendation 2.

OIG Analysis: We consider Recommendation 2 resolved and open. This
recommendation will remain open pending documentation of a final sensitivity review of
the Worksite Enforcement Strategy, and if appropriate, documentation of the strategy’s
reissuance without the ‘For Official Use Only, Law Enforcement Sensitive’ designation.


Established Congressional Notification Practices Were Not Followed

Although ICE’s Worksite Enforcement program does not have a specific congressional
notification requirement, DHS and ICE have established practices for advance
notification to Congress. However, DHS’ decision to provide the Worksite Enforcement
Strategy as an exclusive New York Times interview, and to withhold its notification of the
strategy to ICE employees and Congress until the morning of the article’s release,
deviated from previously established practices.

Both DHS and ICE recognized the importance of prompt response and notification to
Congress, and special emphasis is placed on ensuring that congressional requests for
information are fulfilled. Further, DHS and ICE attempt to notify relevant congressional
members and committees prior to substantive news media events. To the extent possible,
an ICE official said they attempt to provide 24 hours advance notice, although sometimes
notifications coincide with media releases.

DHS and ICE Are Working on Improving Practices

As a result of the confusion surrounding the release of the Worksite Enforcement
Strategy, several DHS officials said that they understand the importance of coordination
and notification practices, as well as the need to adhere to and improve upon past
practices. The same officials recognized the importance of following established


   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              5
practices to ensure proper coordination of congressional notifications and news media
releases.

Since the release of the Worksite Enforcement Strategy, both DHS’ Office of Legislative
Affairs and ICE’s Office of Congressional Relations have implemented improved
practices. For congressional notifications, both offices created notifications lists of
committees and members cross-referenced with the specific areas of interest. Further, the
Office of Legislative Affairs said that it is working on a manual to clarify roles,
responsibilities, and processes for both DHS and all of its components. Both offices
report improved coordination and communication, which will improve service to the
department, Congress, and the public.




   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              6
Appendix A
Purpose, Scope, and Methodology


              We conducted this review in response to a request from U.S.
              Representative Hal Rogers, Ranking Member of the Subcommittee on
              Homeland Security, Committee on Appropriations. Our objectives were
              to (1) determine the process to disseminate the Worksite Enforcement
              Strategy guidelines, and (2) assess the events related to the potential
              unauthorized release of law enforcement sensitive (LES) information,
              including ICE’s actions in addressing and handling the incident.

              We conducted our fieldwork from June to August 2009. We conducted
              interviews with ICE’s Offices of the Assistant Secretary, Congressional
              Relations, Investigations, and Principal Legal Advisor. At DHS, we
              interviewed staff from the Offices of Legislative Affairs, General Counsel,
              Public Affairs, and Policy. We reviewed DHS and ICE policies,
              procedures, and documentation related to safeguarding sensitive but
              unclassified information, public affairs, and legislative and congressional
              affairs.

              We conducted this review under the authority of the Inspector General Act
              of 1978, as amended, and according to the Quality Standards for
              Inspections issued by the President’s Council on Integrity and Efficiency.




  Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                             7
Appendix B
Management Comments to the Draft Letter Report




  Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                             8
Appendix C
Major Contributors to This Report


       Carlton I. Mann, Assistant Inspector General for Inspections, Department of
       Homeland Security, Office of Inspector General

       Anne M. Ford, Inspector and Team Leader, Department of Homeland
       Security, Office of Inspector General, Office of Inspections

       Alexis Lavi, Inspector, Department of Homeland Security, Office of Inspector
       General, Office of Inspections




   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                              9
Appendix D
Letter Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Under Secretary, Management
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, GAO/OIG Liaison Office
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




   Release of the U.S. Immigration and Customs Enforcement’s Worksite Enforcement Strategy

                                             10
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
